           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



       IMPROPER PAYMENTS
       RESULTING FROM THE
      ANNUAL EARNINGS TEST

   August 2007    A-09-07-17066




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      August 31, 2007                                                             Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Improper Payments Resulting from the Annual Earnings Test (A-09-07-17066)


           OBJECTIVE

           Our objective was to determine whether the Social Security Administration (SSA)
           properly identified and adjusted benefits to beneficiaries who were subject to the
           annual earnings test (AET).

           BACKGROUND
           Social Security benefits are intended to replace, in part, earnings an individual or family
           loses because of retirement, disability, or death. Title II of the Social Security Act (Act)
           requires that SSA use an AET to measure the extent of beneficiaries' retirement and
           determine the amount to be deducted from their monthly benefits. 1 The Act provides
           for a two-tier earnings test: one for beneficiaries under full retirement age (FRA) and
           another for beneficiaries in the year they attain FRA. 2

           A beneficiary whose total annual earnings are equal to or less than the annual exempt
           amount will receive full benefits for the year. However, SSA is required to reduce the
           benefit payments of those beneficiaries under FRA who earn an amount, in wages or
           self-employment income or both, over the annual exempt amount. 3 The annual exempt
           amounts for beneficiaries under FRA were $11,280 in 2002, $11,520 in 2003, and
           $11,640 in 2004. For every $2 a beneficiary earns over the annual exempt amount,
           SSA is required to deduct $1 in benefits. 4 For beneficiaries under FRA, each month in
           which an AET deduction is imposed will result in less than a 1-percent increase in their

           1
               Social Security Act §§ 203(b), 203(f), and 203(h), 42 U.S.C. §§ 403(b), 403(f), and 403(h).
           2
             Our audit only included a review of beneficiaries who were under FRA for the entire year. The FRA
           was 65 years for individuals born in 1937 or earlier, 65 years and 2 months for those born in 1938, and
           65 years and 4 months for those born in 1939.
           3
               SSA, Program Operations Manual System (POMS), RS 02501.021.
           4
               SSA, POMS, RS 02501.025 D and RS 02501.080 A.1.
Page 2 - The Commissioner

monthly benefit amount. This occurs because the benefit reduction is adjusted when
               5
they attain FRA and, in some circumstances, the increase in the monthly benefit
amount may be used to offset any resulting overpayment.

To ensure compliance with the AET, SSA compares the earnings posted to the Master
Earnings File (MEF) 6 with the amount on the Master Beneficiary Record (MBR). 7 This
process, called the Earnings Enforcement Operation (EEO), is designed to detect
potential over- and underpayments for beneficiaries subject to the AET. SSA then
adjusts beneficiaries’ payments based on the earnings on the MEF. SSA performs
the EEO three times per year after the end of each calendar year (CY)—usually in
May, July, and the following February. 8

We estimate about 199,300 beneficiaries under FRA had (1) earnings on the MEF
that were more than the annual exempt amounts for CYs 2002 through 2004 and
                                                                               9
(2) a difference of at least $100 from the beneficiaries’ earnings on the MBR.

RESULTS OF REVIEW

SSA did not adjust the benefit payments for all beneficiaries who were subject to the
AET. Based on a random sample of 250 beneficiaries for CYs 2002 through 2004,
we found SSA overpaid $393,117 to 112 beneficiaries and underpaid $44,264 to
16 beneficiaries. 10 As a result, we estimate SSA overpaid about $313 million to
89,300 beneficiaries and underpaid about $35 million to 12,800 beneficiaries. These
payment errors primarily occurred because SSA did not process all records identified
by the EEO. Finally, unless SSA takes corrective action to process all future EEO
selections, we estimate it will pay at least $104 million in overpayments and $11 million
in underpayments annually (see Appendix C). Our sample results are summarized
below.



5
     SSA, POMS, RS 00615.480, RS 00615.101.1, RS 00615.201.B.1, and RS 00615.301.B.1.
6
  The MEF contains earnings for all workers. SSA posts earnings to the MEF based on information
obtained from employers and the Internal Revenue Service (for self-employed individuals).
7
  The MBR contains identifying information for each beneficiary, including entitlement data, benefit
payment history, and earnings reported by the beneficiary.
8
     SSA, POMS, RS 02510.026.
9
  The MBR and MEF are divided into 20 segments, with each segment representing 5 percent of all
records. We identified a population of 9,965 records from Segment 1 of the MBR and MEF. As a result,
we estimate that 199,300 beneficiaries (9,965 x 20) were under FRA and had MEF earnings in excess of
their annual exempt amounts with differences of at least $100 from their MBR earnings.
10
   We calculated the improper payments based on earnings reported on the MEF in accordance with SSA
policy. We recognize that some of the improper payments may be reduced or eliminated if beneficiaries
or employers provide evidence that revisions to the MEF are necessary.
Page 3 - The Commissioner



              Improper Payments Resulting from the AET
                        Based on Random Sample of 250 Beneficiaries


     16 Underpayments                                            122 Correct Payments
          (6.4%)                                                        (48.8%)




     112 Overpayments
          (44.8%)




Records Identified by EEO Not Processed

Through the EEO, SSA’s Office of Systems identifies beneficiaries who are subject to
AET. For CYs 2002 though 2004, the EEO identified about 1.9 million beneficiaries
who, based on the earnings reported on the MEF, were over- or underpaid benefits for
the year.

The AET process involves two automated steps after the records subject to
enforcement are identified. First, the EEO program determines the amount of
earnings that are used for the AET (called enforceable earnings). In addition, the
records are screened to ensure they meet the AET criteria for processing. For
example, the EEO program determines whether the enforceable earnings are greater
than the annual exempt amount and different from the amount recorded on the MBR.
Second, if the records meet the EEO screening criteria, the records are processed
through SSA’s Automated Job Stream program (AJS-3). The AJS-3 program makes
necessary changes to the beneficiary records, which includes establishing over- or
underpayments. In addition, AJS-3 notifies beneficiaries of the actions taken because
of the EEO. Any EEO selections not processed by AJS-3 require review and manual
processing. For example, SSA staff may need to verify questionable earnings by
contacting employers. The following table summarizes the number and amount of
overpayments established by AJS-3 for CYs 2002 and 2003.
Page 4 - The Commissioner

             Calendar                    Number of                Amount of
               Year                     Overpayments             Overpayments
               2002                        109,727               $200,258,046
               2003                        137,014               $258,439,585
               Total                       246,741               $458,697,631

We found that, after the Office of Systems identified its EEO selections, the Office of
Quality Performance (OQP) removed about 681,000 of the selected records (see table
below). The remaining records were returned to the Office of Systems and processed
as required by SSA policy. According to OQP, it removed these records to identify
ways of automating the processing of EEO selections that would otherwise require
manual intervention. OQP also stated it removes EEO selections that are susceptible
to error (for example, wages earned before an individual's entitlement to benefits) if
they are automatically processed by AJS-3.

However, of the 681,000 records OQP removed, we found that OQP only processed
about 39,500. Approximately 641,000 (94.2 percent) were not processed. OQP
acknowledged there is a backlog of unprocessed EEO selections that need to be
resolved. The following table summarizes the total number of EEO selections, the
number removed by OQP, and the number still pending for CYs 2002 through 2004.

         Calendar               Number of EEO   Number Removed      Number Pending
           Year                   Selections       by OQP              in OQP 11
           2002                     625,222        230,176              220,859
           2003                     650,966        243,265              228,491
           2004                     688,505        208,078              192,605
           Total                  1,964,693        681,519              641,955

Payment Errors Primarily Attributed to Unprocessed OQP Backlog

Our audit disclosed that SSA did not adjust the benefit payments for 128 of the
250 beneficiaries in our sample (see Appendix C). This occurred because (1) OQP
had removed the records from the EEO and (2) SSA policy specifically excluded some
records from the EEO. As a result, SSA overpaid 112 beneficiaries and underpaid
16 beneficiaries for CYs 2002 through 2004.

    Overpayments – SSA overpaid $393,117 to 112 beneficiaries in our sample. This
occurred because OQP removed the records from the EEO but did not subsequently
process them. As a result, SSA did not establish benefit overpayments, as required,
since the earnings on the MEF were higher than the amount the beneficiaries had
reported. Based on our sample results, we estimate SSA overpaid about $313 million
to 89,300 beneficiaries.


11
     As of February 20, 2007.
Page 5 - The Commissioner

One beneficiary in our sample was overpaid $7,287 because his actual earnings
of $25,855 in 2002 exceeded the $11,280 annual exempt amount. SSA did not
deduct any monthly benefits for 2002 because his previously estimated earnings of
$10,680 were less than the annual exempt amount. In addition, if SSA had processed
the EEO selection, the beneficiary's monthly benefit amount would have increased
from $1,101 to $1,155 at FRA (January 2004). However, SSA did not adjust his benefit
payments after his earnings were posted to the MEF because OQP removed his record
from the EEO and did not subsequently process it.

    Underpayments – SSA underpaid $44,264 to 16 beneficiaries in our sample. This
occurred because (1) OQP had removed the records from the EEO and (2) SSA policy
specifically excluded some records from the EEO. Based on our sample results, we
estimate SSA underpaid about $35 million to 12,800 beneficiaries.

For 12 of the 16 underpayments, SSA did not process the records because OQP
had removed them from the EEO. One beneficiary in our sample was underpaid
$3,395 because he overestimated his 2004 earnings. SSA deducted $4,251 of
monthly benefits in 2004 because the beneficiary estimated he would earn $18,978
or $7,338 more than the annual exempt amount. In addition, if SSA had processed the
EEO selection, the beneficiary's monthly benefit amount would have decreased from
$1,165 to $1,143 at FRA (November 2005). However, SSA did not adjust his benefit
payments after his $13,352 in earnings was posted to the MEF because OQP removed
this record from the EEO and did not subsequently process it.

For the remaining four underpayments, SSA did not process the records because its
policy states the EEO should not select records if the beneficiary’s annual earnings
                                                     12
report is higher than the amount posted to the MEF. Since the four beneficiaries had
reported earnings that were higher than the amount posted to the MEF, the EEO did
not select them for processing. As a result, these beneficiaries were underpaid $6,280.
One beneficiary was underpaid $5,163 because she reported to SSA that she earned
more than the amount posted to the MEF. This beneficiary informed SSA she earned
$22,646 in 2002, but the MEF showed she only earned $12,320. This individual’s
benefit payments were adjusted based on her reported earnings of $22,646. However,
SSA did not adjust her benefit payments after the earnings of $12,320 were posted to
the MEF because the EEO did not select this record.

We believe SSA’s policy for selecting EEO records should be similar for beneficiaries
who overstate and understate their earnings. According to SSA policy, the EEO will not
select and notify beneficiaries they may be underpaid because their reported earnings
are higher than the amount on the MEF. Whereas, if beneficiaries underreport their
earnings, SSA policy requires that the EEO select and notify beneficiaries they are
overpaid based on the earnings on the MEF.



12
     SSA, POMS, RS 02510.026 C.2.c.
Page 6 - The Commissioner

Additional EEO Selections Not Processed

Based on information provided by OQP, we found that OQP removed about 1.7 million
EEO selections for CYs 1996 through 2001. However, OQP had not processed
about 1.4 million (78.3 percent) of the 1.7 million EEO selections. The following table
summarizes the total number of EEO selections removed by OQP and the number still
pending for CYs 1996 through 2001.

             Calendar             Number Removed                 Number Pending
               Year                   by OQP                        in OQP 13
               1996                    208,057                        144,017
               1997                    248,588                        155,771
               1998                    302,557                        185,994
               1999                    343,324                        270,015
               2000                    404,116                        381,019
               2001                    249,540                        238,140
               Total                 1,756,182                     1,374,956

Based on our audit results for CYs 2002 through 2004, we expect there may be a
substantial number of beneficiaries who are overpaid or underpaid for these years.

CONCLUSIONS AND RECOMMENDATIONS

We found that SSA did not adjust the benefits of all beneficiaries who were subject
to the AET. Based on our sample results, we estimate SSA overpaid about
$313 million to 89,300 beneficiaries and underpaid about $35 million to
12,800 beneficiaries. These payment errors primarily occurred because SSA did not
process all records identified by its annual EEO. We also found that SSA had over
2 million unprocessed EEO selections for CYs 1996 through 2004. Finally, unless SSA
takes corrective action to process all future EEO selections, we estimate it will pay at
least $104 million in overpayments and $11 million in underpayments annually.

We are encouraged that OQP has acknowledged this backlog needs to be
addressed and resolved. In March 2007, OQP established a workgroup consisting
of representatives from SSA Operations, Systems and Policy to evaluate methods for
addressing the backlog and improving SSA’s administration of AET. According to OQP,
it has already initiated corrective actions to address all future EEO selections. Finally,
we are planning future audits of the AET, which will include a review of SSA’s progress
in addressing the backlog of cases.

We recommend that SSA:



13
     As of February 20, 2007.
Page 7 - The Commissioner

1. Review and process, as appropriate, all EEO selections pending in OQP since
   1996.

2. Determine whether OQP should continue the practice of removing records selected
   by the EEO. If SSA determines OQP should continue this practice, it needs to
   establish management oversight of this workload to ensure it is accurately
   processed in a timely manner.

3. Determine whether it should revise the EEO to select beneficiaries whose annual
   report of earnings is greater than their MEF earnings.

AGENCY COMMENTS
SSA agreed with Recommendations 1 and 2. SSA also agreed with the intent of
Recommendation 3, stating that it would conduct a study to determine whether a policy
change should be made. See Appendix D for the text of SSA’s comments.




                                              Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                            Appendix A

Acronyms
Act      Social Security Act
AET      Annual Earnings Test
AJS      Automated Job Stream
CY       Calendar Year
EEO      Earnings Enforcement Operation
FRA      Full Retirement Age
MBR      Master Beneficiary Record
MEF      Master Earnings File
OIG      Office of the Inspector General
OQP      Office of Quality Performance
POMS     Program Operations Manual System
SSA      Social Security Administration
U.S.C.   United States Code
                                                                      Appendix B

Scope and Methodology
Our audit covered the period January 1, 2002 to December 31, 2004. To accomplish
our objective, we

•   reviewed the applicable sections of the Social Security Act and the Social Security
    Administration’s (SSA) Program Operations Manual System;

•   reviewed SSA’s system requirements for its Earnings Enforcement Operation
    (EEO);

•   interviewed SSA employees from the Western Program Service Center and the
    Offices of Quality Performance (OQP), Income Security Programs, and Retirement
    and Survivors Insurance Systems;

•   selected a random sample of 250 Old-Age and Survivors Insurance beneficiaries
    who had earnings in excess of the annual exempt amount for Calendar Years 2002
    through 2004;

•   reviewed queries from SSA’s Master Beneficiary Record (MBR) and Master
    Earnings File (MEF) to determine whether SSA properly adjusted benefits based
    on actual earnings; and

•   reviewed employer evidence provided by OQP to verify earnings for selected
    beneficiaries.

We determined the computer-processed data from the MBR and MEF were sufficiently
reliable for our intended use. We conducted tests to determine the completeness and
accuracy of the data. These tests allowed us to assess the reliability of the data and
achieve our audit objectives. However, we did not determine the reliability of the data
provided by OQP, including the number of records removed from the EEO and the
number pending in OQP.

We performed audit work in Richmond, California, and Baltimore, Maryland, between
September 2006 and March 2007. The entities audited were the Office of Income
Security Programs under the Deputy Commissioner for Disability and Income Security
Programs; Office of Retirement and Survivors Insurance Systems under the Deputy
Commissioner for Systems; and Office of Quality Performance under the Chief Quality
Officer. We conducted our audit in accordance with generally accepted government
auditing standards.
                                                                                 Appendix C

Sampling Methodology and Results
We obtained data extracts from a 5-percent segment of the Social Security
Administration’s (SSA) Master Beneficiary Record (MBR) and Master Earnings File
(MEF) 1 of all Old-Age and Survivors Insurance beneficiaries in current pay status who
were in the year of their full retirement age (FRA) or younger with

•     earnings on the MEF that were greater than the annual exempt amount for
      Calendar Years (CY) 2002 through 2004 and

•     differences in the amount of earnings posted to the MBR and MEF that were
      greater than $100 (using absolute values).

From the data extract, we eliminated any beneficiaries who initially became entitled
to benefit payments or attained FRA during the earnings year. This resulted in
9,965 beneficiaries for CYs 2002 through 2004. From this population, we randomly
selected a sample of 250 beneficiaries for review. For each beneficiary in our sample,
we obtained information from the MBR and MEF to determine whether SSA properly
adjusted benefits based on the earnings posted to the MEF.

Of the 250 beneficiaries in our sample, we found that SSA overpaid $393,117 to
112 beneficiaries and underpaid $44,264 to 16 beneficiaries for CYs 2002 through
       2
2004. Projecting these results to all 20 segments, we estimate SSA overpaid
about $313 million to 89,300 beneficiaries and underpaid about $35 million to
12,800 beneficiaries. The following tables provide the details of our sample results,
statistical projections, and estimates.

                  Table 1: Population and Sample Size                                   Number
    Population Size (data extract from 1 segment)                                           9,965
    Sample Size                                                                               250
    Estimated Number in Universe (Population Size x 20 segments)                          199,300




1
   The MBR and MEF are divided into 20 segments for processing and updating. The segments are
determined by the last two digits of the Social Security number. Each segment represents 5 percent of
all records. We randomly selected a sample of 250 records from our population of 9,965 records that we
extracted from Segment 1 of the MBR and MEF.
2
  We calculated the improper payments based on earnings reported on the MEF in accordance with SSA
policy. We recognize that some of the improper payments may be reduced or eliminated if beneficiaries
or employers provide evidence that revisions to the MEF are necessary.


                                                 C-1
               Table 2: Overpayments                            Number        Amount
 Sample Results (for 1 segment)                                       112      $393,117
 Point Estimate (for 1 segment)                                     4,464    $15,669,644
 Projection - Lower Limit                                           3,942    $12,222,895
 Projection - Upper Limit                                           4,995    $19,116,392
 Population Estimate (Point Estimate x 20 segments)                89,280   $313,392,880
Note: All projections are at the 90-percent confidence level.


               Table 3: Underpayments                           Number        Amount
 Sample Results (for 1 segment)                                        16        $44,264
 Point Estimate (for 1 segment)                                       638     $1,764,363
 Projection - Lower Limit                                             407      $758,905
 Projection - Upper Limit                                             948     $2,769,821
 Population Estimate (Point Estimate x 20 segments)                12,760    $35,287,260
Note: All projections are at the 90-percent confidence level.

To estimate the annual amount of over- and underpayments that would occur if
SSA does not take corrective action to process all future Earnings Enforcement
Operation selections, we divided our population estimates for CYs 2002 through
2004 by 3 years. Accordingly, we estimate SSA will pay at least $104 million in
overpayments ($313,392,880 ÷ 3 = $104,464,293) and $11 million in underpayments
($35,287,260 ÷ 3 = $11,762,420) annually.




                                                    C-2
                  Appendix D

Agency Comments
                                       SOCIAL SECURITY

MEMORANDUM


Date:      August 17, 2007                                                       Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Improper Payments Resulting from the
           Annual Earnings Test" (A-09-07-17066)--INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "IMPROPER PAYMENTS RESULTING FROM THE ANNUAL EARNINGS
TEST" (A-09-07-17066)


Thank you for the opportunity to review and comment on the draft report. We generally agree
with the report’s findings and recommendations. We appreciate the report’s acknowledgement
of our efforts to establish a workgroup to evaluate methods for addressing the backlog and
improve our administration of the Annual Earnings Test (AET). In addition, we appreciate the
Office of the Inspector General’s input that was provided to the workgroup as they continue to
identify enhancements in the Earnings Enforcement Operation (EEO) case selection process.

We are concerned that the draft report does not adequately explain the offset of overpayments by
subsequent monthly benefit amount increases at full retirement age (FRA) that are directly
related to the number of months that the worker has AET work deductions from the date of
entitlement up to the attainment of FRA. Our responses to the specific recommendations are
provided below.

Recommendation 1

SSA should review and process, as appropriate, all EEO selections pending in the Office of
Quality Performance (OQP) since 1996.

Response

We agree. We have prepared a draft strategy for handling pending TIER II enforcement
selections for tax years prior to 2006.

Recommendation 2

SSA should determine whether OQP should continue the practice of removing records selected
by the EEO. If SSA determines OQP should continue this practice, it needs to establish
management oversight of this workload to ensure it is accurately processed in a timely manner.

Response

We agree. Beginning with tax year 2006, significant changes were made to the selection criteria
for items removed from the EEO for subsequent TIER II processing based on intercomponent
considerations of the issues. A draft plan for handling ongoing TIER II processes with
intercomponent oversight is currently being evaluated.

Recommendation 3

SSA should determine whether it should revise the EEO to select beneficiaries whose annual
report of earnings is greater than their Master Earnings File (MEF) earnings.


                                              D-2
Response

We agree with the intent of the recommendation. However, there are many reasons why the
earnings reported by a beneficiary could be greater than what is on the MEF. One reason could
be that the MEF is incorrect. The report should note that beneficiaries have the responsibility of
reporting events, such as work and earnings that may affect their benefits. We do not believe
changes should be made in policy without a clear explanation of why there are differences
between reported earnings and the MEF. We will conduct a study of accounts where earnings
records postings are less than earnings posted to the master benefit records and share the results
with affected components.




                                                D-3
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division, (510) 970-1739

   Jack H. Trudel, Audit Manager, (510) 970-1733

Acknowledgments

In addition to those named above:

   James A. Sippel, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-09-07-17066.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
